<html>
<title> - COLOMBIA: PEACE WITH THE FARC?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     COLOMBIA: PEACE WITH THE FARC?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2015

                               __________

                           Serial No. 114-58

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 
                                 ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
95-246PDF               WASHINGTON : 2015                                                   
                               
______________________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  





                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida<greek-l>        ALAN S. LOWENTHAL, California
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Bernard Aronson, Special Envoy to the Colombian 
  Peace Process, U.S. Department of State........................     6
Mr. Alex Lee, Deputy Assistant Secretary for South America and 
  Cuba, Bureau of Western Hemisphere Affairs, U.S. Department of 
  State..........................................................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Bernard Aronson: Prepared statement................     9
Mr. Alex Lee: Prepared statement.................................    15

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Letter from the Honorable Marco Rubio, a 
  U.S. Senator in Congress from the State of Florida, to the 
  Honorable Bernie Aronson, Special Envoy for the Colombia Peace 
  Process, United States Department of State, dated February 26, 
  2015...........................................................    38
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Statement of the Honorable Sam Farr, a 
  Representative in Congress from the State of California........    40
The Honorable Alan S. Lowenthal, a Representative in Congress 
  from the State of California: Prepared statement...............    42
Written responses from Mr. Alex Lee to questions submitted for 
  the record by the Honorable Alan S. Lowenthal..................    45
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    47


                     COLOMBIA: PEACE WITH THE FARC?

                              ----------                              


                        WEDNESDAY, JUNE 24, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Jeff 
Duncan (chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order.
    And I would now like to recognize myself for an opening 
statement. Colombia and the United States have been fierce 
friends and allies for a very long time, and I believe that 
Colombia is critical to regional security in the Western 
Hemisphere. The leadership demonstrated by President Santos and 
former President Uribe have helped to shape Colombia into a 
model for the region. Today, Colombia stands as a strong 
democracy, economic and financial powerhouse, and a leader in 
training other countries' police and military forces in the 
region.
    We have a free trade agreement with Colombia that shows 
every sign of benefiting both countries, and Colombia has been 
a leader in creating the Pacific Alliance to further the 
economies of the free trade trading bloc of countries in the 
hemisphere. In particular, the South Carolina National Guard 
and Colombian military have been working together since 2012 in 
the State Partnership Program to develop ties and partner 
capacity and build regional stability.
    However, even though Colombia is a leader in the region in 
so many ways, it is also home to the hemisphere's longest 
running and only active armed conflict that has claimed over 
220,000 lives and displaced more than 5 million people. Let me 
repeat that: It has claimed over 220,000 lives and displaced 
more than 5 million people.
    According to a recent United Nations report, Colombia has 
the world's second highest rate of internal refugees after 
Syria. We all want to see these problems resolved and peace 
achieved. Today, we meet to examine the issue of peace talks 
between the Colombian Government and the Revolutionary Armed 
Forces of Colombia, or FARC, which have been ongoing since 2012 
after three previous failed attempts in 1984, 1991, and 1998. 
We want to better understand recent developments in the peace 
talks, examine what elements should be included in a successful 
agreement, and determine what a good end state to the conflict 
would look like for the United States, Colombia, and regional 
interests.
    After nearly 50 years of war, the Colombian people have a 
vital interest in pursuing peace. Similarly, the American 
people have given almost $10 billion to help Colombia achieve 
the end of this conflict, combat drug trafficking, and promote 
internal development through Plan Colombia. Colombia is the 
single largest recipient of U.S. foreign assistance in Latin 
America and the Caribbean, and we have many deep security, 
economic, and political ties that bind us together.
    After 2\1/2\ years of negotiations and over 30 rounds of 
talks, the Colombian Government and the FARC have reached 
partial agreements on three of five critical points: Land 
reform, political participation, and drug trafficking. Yet the 
thorniest of issues--victims' reparations and disarmament and 
traditional justice and how the final agreement will be 
approved, verified, implemented, and paid for--remain 
unresolved.
    Given the joint efforts by the United States and Colombians 
to gain peace, it is critical that whatever outcome Colombia 
and FARC achieve through the peace process results in peace, 
justice for crimes committed, and a demobilized FARC that 
renounces violence, criminal activities, and terrorism in 
Colombia and neighboring countries, and the FARC's 
reintegration into Colombia's society through solely peaceful, 
democratic means.
    We must not forget who we are dealing with here. The FARC 
was founded in 1964 as a Communist guerrilla movement and the 
military wing of the Colombian Communist Party. Its strategy 
has been shaped by communism and socialism, and it is a 
terrorist organization, recognized as such by the United 
States, Canada, New Zealand, and the European Union. Through 
its illicit activities, the FARC makes $600 million or more a 
year and is the third richest terrorist organization after ISIS 
and Hamas.
    It also maintains relations with human rights abusers in 
the governments of Venezuela, Ecuador, and Cuba; terrorist 
organizations like Hezbollah; and criminal organizations 
involved if the drug trade. Lest we forget, although Cuba has 
been harboring FARC terrorists who have taken refuge in Havana, 
the Obama administration dropped Cuba's terrorist designation 
earlier this year. That should not happen with FARC unless we 
see demonstrable evidence of change and a complete stop of 
FARC's terrorist attacks in Colombia.
    Given this history, we should not forget the advice of 
Chinese military theorist Sun Tzu, to know the enemy and know 
yourself, as we pursue options for peace. Why is the FARC at 
the negotiating table? If the FARC is truly serious about 
ending the conflict, what is motivating it to carry out more 
than 150 attacks in the last month, with numbers that have not 
been seen in Colombia since 2011? I support the pursuit of 
peace, and peace is always desirable to war. However, it must 
be clear that any peace agreement reinforces the gains of the 
last 15 years. If this peace deal is not a good deal and ends 
up throwing away many of the achievements the U.S. and 
Colombians have fought for, we may all have a greater problem 
on our hands.
    The U.S. has helped Colombia with the reintegration of 
former guerrillas. And when I was in Cartagena last year with 
the full committee chairman, Chairman Royce, we had a meeting 
with former National Liberation Army, ELN, guerrillas who were 
discovering the dignity and hope that comes from the 
entrepreneurial spirit rather than from a life of terrorism. 
There is a lot of potential when guerrillas lay down their arms 
and seek to reintegrate back into society peacefully.
    I just hope that President Santos does not sacrifice the 
integrity of his military and Colombia's rich democracy to 
accomplish the lofty goals of reaching an agreement without 
demanding changes from the FARC. Let's not make the same 
mistake in Colombia that we seem to be making with the Iranian 
nuclear talks. We must make sure that the Colombian peace deal 
is a good deal.
    So, in particular, I am concerned that the preliminary 
drug-trafficking agreement would roll back efforts gained in 
Plan Colombia to eliminate the cultivation of coca through 
aerial spraying. This is problematic because these efforts have 
been working. According to the United Nations Office on Drugs 
and Crime, coca fields in Colombia have fallen from more than 
345,000 acres in 2001 to about 118,000 acres by the end of 
2013, yet in the partial agreement, only manual eradication is 
permitted. I have seen manual eradication firsthand in Peru. I 
know what it entails. And I know how difficult it is. The 
Colombian Government also has to negotiate eradication with 
local communities by providing a series of welfare benefits. 
Such actions could delay eradication and allow the FARC to 
continue its coca source of income.
    This announcement last month that Colombia had decided to 
completely stop aerial fumigation of drug crops, a centerpiece 
in U.S. and Colombia efforts to counter the cocaine production, 
threatens to undo much of the work our countries have done on 
this issue. In addition, the FARC has requested the United 
States release Ricardo Palmera, a FARC leader, extradited to 
the United States in 2004, currently serving a 60-year sentence 
for his role in a FARC kidnapping and hostage situation 
involving three Americans.
    Similarly, there were at least 60 FARC members who have 
U.S. indictments against them from the U.S. Department of 
Justice. While the FARC leadership has made it clear that they 
will not agree to demobilize unless they will not be extradited 
to the United States, it is important for the rule of law that 
criminals face justice for their crimes. There are two cases in 
particular that deserve review. The United States has requested 
the extradition of FARC leaders Rodrigo Perez Alzate and 
Eduardo Cabrera, El Cura is his name, for drug trafficking.
    As of March, Colombia has decided not to extradite these 
individuals to the United States to face justice. I strongly 
urge Colombia to reconsider. I strongly urge the Obama 
administration to maintain a firm focus on upholding the rule 
of law.
    So, in conclusion, my message for our Colombian friends is 
this: We stand with you in your pursuit of peace, but do not 
give up the military successes we have achieved together at the 
negotiating table. Colombia's history is full of attempted 
peace settlements that set up the next war. Let's make sure 
that this time is different, that we do not repeat the same 
mistakes of the past. And let me just say this: I love 
Colombia. I love the Colombian people. I want peace for 
Colombia. And I hope that there is success at the negotiating 
table with the FARC. Peace is desired I think by everyone here 
for the Colombian people. It is alarming that 220,000 people 
have died and 5 million people have been displaced. It is time 
for peace in Colombia.
    And so I look forward to a robust discussion about this 
issue. Americans are concerned about peace in Colombia as well. 
So, with that, I look forward to hearing from our witnesses.
    And I now turn to Ranking Member Sires for his opening 
statement.
    Mr. Sires. Thank you, Mr. Chairman.
    And thank you to Special Envoy Aronson and Deputy Assistant 
Secretary Lee for testifying here today.
    We are here to examine the ongoing peace talks between 
Colombia and the Revolutionary Armed Forces of Colombia. In the 
1960s, leftist groups inspired by the Cuban revolution accused 
the Colombian Government of rural neglect that resulted in 
poverty and highly concentrated land ownership. The ensuing 
internal civil conflict between violent leftist guerrilla 
groups and the government has continued unabated for half a 
century.
    Colombia has been a source country for both cocaine and 
heroin for more than four decades. Drug trafficking has helped 
perpetuate Colombia's internal conflict by funding both 
leftwing and rightwing armed groups. Tens of thousands of 
Colombians have died in the conflict, and the government has 
registered more than 25,000 as missing or disappeared.
    An originally published U.N. report indicates that nearly 6 
million people have been internally displaced in Colombia, the 
largest displacement in the world after Syria. This 
displacement has generated a humanitarian crisis which has 
disproportionately affected women, Afro-Colombians, and 
indigenous populations. In addition, the use of landmines laid 
primarily by the FARC has caused more than 10,000 deaths and 
injuries since 1990.
    Through close security cooperation and Plan Colombia, the 
U.S. gave nearly $10 billion to Colombia over the last 15 
years, preventing Colombia from spiralling into a failed 
narcotrafficking state. With our help, Colombia has succeeded 
in reestablishing government control over much of its 
territory, reducing poverty and homicide rates, and making 
significant progress in combating drug trafficking.
    After 50 years of conflict in Colombia and $10 billion in 
U.S. investments, the FARC and Colombian Government are sitting 
down for another attempt at finding peace. A comprehensive 
peace deal is necessary to help Colombia move past this chapter 
in history and continue the progress they have steadily gained 
in the past. Two-and-a-half years and 37 rounds of negotiations 
have led to accords on three of the six main points. 
Additionally, the FARC has agreed to work with the 
international community to remove landmines littered throughout 
Colombia. Rural development, FARC's political participation, 
and drug trafficking have been resolved.
    But the controversial issues of victims' reparations, 
disarmament, and reintegration of FARC rebels into civilian 
society remains on the table. A swift and credible resolution 
to these outstanding issues is critical to ensuring the peace 
process remains credible in the eyes of the Colombian people. I 
am interested in hearing how the U.S. can play a productive 
role in the peace process without playing into the narrative 
that the U.S. is inserting its own agenda in Colombia.
    The Colombian people will only accept an agreement that 
respects their sovereignty and strikes a balance between 
retribution and reconciliation. After supporting the Colombian 
people for decades as they struggle with the internal armed 
conflict, it is imperative that we continue to support them as 
they work toward peace.
    I look forward to hearing from our witnesses on how the 
peace process will move forward. Thank you.
    Mr. Duncan. I thank the ranking member.
    And now recognize the chairwoman of the Middle East and 
North Africa Subcommittee for an opening statement.
    Ms. Ros-Lehtinen. Thank you much so much, Chairman Duncan 
and Ranking Member Sires.
    When discussing the ongoing peace talks between the 
Colombian Government and the U.S.-designated terrorist group 
FARC, it is vital that we examine all the ramifications. And 
the first problem is where these talks are being held, in Cuba, 
under the auspices of the Castro regime, where repression is 
the order of the day.
    But it isn't just the Castro brothers, who have known 
sympathies for terrorists and a proclivity for undermining U.S. 
interests whenever and wherever possible, who have been acting 
as interlocutors. Maduro in Venezuela and Chavez before him 
have also been doing this. The Castro brothers, Maduro, and 
Chavez when he was alive, cannot be trusted, cannot be seen as 
neutral interlocutors because they all benefited greatly from 
their relationship with the terrorist group FARC through 
financing by the drug trade. The materials captured from the 
2008 raid of a FARC camp in Ecuador confirmed the cooperation 
between Venezuelan officials and FARC members. And now Castro 
has used a charade of these FARC talks to give the Obama 
administration the cover it needed to remove Cuba from the 
state sponsor of terrorism list. We must remain highly 
skeptical of these talks.
    Mr. Chairman, many Cuban nationals in Colombia who are 
doctors have escaped from their medical slave camps in 
Venezuela. They sought asylum in Colombia. Under U.S. law, 
these eligible Cuban nationals can come to the United States 
under the Cuban Medical Professional Parole Program, yet these 
Cubans in Colombia are having problems with our embassy vetting 
their cases. Are embassies in Latin America sending a message 
to Cuban nationals that are seeking asylum that due to this 
dangerous establishment of diplomatic relations between the 
United States and Cuba, that the legitimate cases of Cuban 
asylum cases will no longer be welcome?
    And today I was joined by my colleagues Mario Diaz-Balart, 
Albio Sires, and Carlos Curbelo in sending a letter to 
Ambassador Whitaker and Immigration Director Rodriguez urging 
our Government to prioritize these cases and allow any eligible 
Cuban to come to the United States.
    And, Mr. Chairman, I will ask for unanimous consent to make 
these letters a part of the record.
    Mr. Duncan. Without objection, so ordered.
    Ms. Ros-Lehtinen. I yield back. Thank you, Mr. Chairman.
    Mr. Duncan. I also ask unanimous consent to enter into the 
record a letter from Senator Marco Rubio, chairman of the 
Western Hemisphere Subcommittee, to Mr. Aronson, dated February 
26, 2015.
    Without objection, so ordered.
    Before I recognize the panelists, just to explain the 
lighting system. You are given 5 minutes. And when it gets down 
to a minute, it will turn yellow. And when it gets to red, 
please try to find a wrap up.
    I may have a little leniency because there is only two of 
you, but I am sure our committee have has a lot of questions, 
and we will have votes later on this afternoon.
    Other members of the committee are reminded they can submit 
opening statements for the record.
    And so we will go ahead and get started. First, the 
biographies are in your materials provided, so I am not going 
to read those. The first panelist to be recognized will be the 
Honorable Bernard Aronson, Special Envoy to the Colombian Peace 
Process.
    And Mr. Aronson, I am going to recognize you first.

 STATEMENT OF THE HONORABLE BERNARD ARONSON, SPECIAL ENVOY TO 
     THE COLOMBIAN PEACE PROCESS, U.S. DEPARTMENT OF STATE

    Mr. Aronson. Thank you very much, Mr. Chairman and Ranking 
Member Sires, my old friend Congresswoman Ros-Lehtinen, and 
others on the committee.
    I think it is very important that the committee is holding 
this hearing today. We have had a 25-year partnership with 
Colombia. The first thing that crossed my desk when I was 
Assistant Secretary of State in 1989 was a $50-million request 
from Colombia to help them defeat the Medellin Cartel and Pablo 
Escobar. And that was passed with bipartisan support. Passed 
the Andean Trade Preference Initiative. Plan Colombia was an 
unprecedented bipartisan commitment to another country, which I 
think, as both President Uribe and President Santos have 
acknowledged, helped Colombia save itself from being the 
potential of being a failed state, as the chairman said, and 
really allowed it to fundamentally change the relationship on 
the battlefield to the advantage of the government. And we now 
have a free trade agreement, as you know.
    And I would just remind the committee that this partnership 
has been a two-way street. When the United States in 1991 was 
assembling a Security Council vote to take on Saddam Hussein's 
invasion of Kuwait, Colombia was a member of the Security 
Council and stood by our side. In Afghanistan, Colombia, at 
U.S. request, provided assistance and personnel and training to 
the Afghan Government in counternarcotics. They are working 
with us today in Central America and with the Mexican 
Government. So this has been a very powerful and important 
strategic relationship. The Colombian people greatly value this 
relationship.
    And, Mr. Chairman, you said, you know, expressed your love 
for Colombia. I would say, of all the countries in Latin 
America, the one in which that love is most reciprocated is 
Colombia. They appreciate the role we played. So I think I 
applaud this committee for continuing that bipartisan interest 
and that commitment.
    You know, just the other day, a 7-year-old girl was killed 
in Colombia when she stepped on an explosive device. And she is 
one of the 225,000 Colombians killed in this conflict that you 
have cited. If we translated that into U.S. population terms, 
that would mean we would have lost 1.4 million Americans. So 
this is a terrible, devastating conflict, as you noted, Mr. 
Chairman and ranking member. It has gone on for 51 years. It 
has displaced 5 million to 6 million Colombians; polluted the 
waters; particularly impacted indigenous people, Afro-
Colombians, and marginalized people; and it is time to end the 
war.
    President Santos ran on a clear reelection platform that he 
was committed to negotiating an end to the war. He won 
reelection. I think he won a mandate to pursue this. And I 
would say that he has pursued the peace with great courage and 
at some political cost. And as difficult as war is, it is kind 
of clear what to do always, and you know who the enemy is and 
you know the choices you make.
    The peace process is very complicated and not so easy to 
push forward. It is a bit of a roller coaster. When things are 
going well, when they pass an agreement to cooperate in 
demining, support for the peace process goes up. When the FARC 
blows up power systems and water systems and oil pipelines, as 
it has done in recent weeks, and killed policemen and Armed 
Forces, not surprisingly support goes down.
    Let me just say a word about my role, and then really let 
Deputy Assistant Secretary--I am sorry, I called you by your 
colleague's name.
    Anyway, President Obama had spoken with both President 
Santos, Secretary of State Kerry had spoken to President Santos 
on several occasions toward the end of last year and early in 
this year. And the President voiced a desire to see the U.S. 
more visibly engaged in the peace process. And he raised the 
idea of the U.S. appointing a special envoy. And as I said, 
President Obama and Secretary of State have enormous respect 
and confidence in President Santos. And they acceded to that 
request. And I was asked if I would serve in this position.
    Let me just say what I am not and let me say what I do. I 
am not a classic mediator. I don't go and sit at the bargaining 
table. I don't convene meetings. I don't shuttle between the 
two sides. I don't offer bridging proposals. This is a 
negotiation between the Government of Colombia and the FARC 
with various friends of the process who have been invited in by 
the parties.
    So what do I do? Well, I am available to President Santos 
and his advisers to share ideas, to talk about strategy, to 
review past peace processes that I may have some experience 
with, such as El Salvador, that could be relevant.
    I sit in on sessions solely with the FARC and then 
separately with the government because the government felt that 
that might be useful to try to educate the FARC about U.S. 
policy, whether we would support a peace settlement if it 
happened, and to some extent interpret where they are to the 
government. And that is the role I play. I have been to Havana 
four times. I am going on my fifth trip on Thursday morning.
    And I also interact with significant players in Colombian 
political life. I talk to President Uribe. I am seeing 
President Gaviria, President Pastrana, all of whom I have known 
and worked with over the years when I go to Bogota.
    It is not a secret that the peace talks are in a difficult 
moment. The unilateral cease-fire that the FARC had announced 
in December broke down after the FARC attacked and killed an 
Army unit, killing 11 soldiers, wounding 17. And the President 
responded by resuming aerial bombardment. And there has been 
escalating conflict since that time.
    You know, at the end of the day, the FARC has to decide 
whether it is serious about peace and whether it has the will 
to embrace a peace that the Colombian people will accept. And I 
think the two of you, the ranking member and the chairman, laid 
out those principles pretty well. They have to relinquish armed 
struggle, give up their weapons, renounce and get out of any 
criminal activity, make reparations, submit themselves to 
transitional justice, and demobilize and rejoin Colombian 
society as a lawful political entity. Whether they will get 
there or not I honestly can't tell you. There is a lot of 
history to overcome, a lot of suspicion. And I don't think they 
are improving their case at all by blowing up water systems and 
pipelines and making life hard and difficult for ordinary 
Colombians.
    But the United States wants to be supportive, as this 
committee has done. We don't intend to interfere. As I said, we 
do not always announce. I don't have a blueprint to impose, nor 
is it our place to impose a settlement on the Colombian people. 
They do the fighting and the dying. But we have made it clear, 
you know, our strong concern on counternarcotics and our strong 
concern on the rule of law and our strong concern on meeting 
international obligations. So I think I will just close there 
and turn it over to my colleague.
    [The prepared statement of Mr. Aronson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]       
    
                                  ----------                              

    Mr. Duncan. I want to thank the gentleman.
    The next panelist is Mr. Alex Lee. He is Deputy Assistant 
Secretary of South America and Cuba in the Bureau of Western 
Hemisphere Affairs, U.S. Department of State.
    And I will say this, you used to have a gentleman working 
there in your department, Tim Hall from South Carolina, who I 
know well. And he is now in Iraq, economic affairs. But you 
lost a good one there.
    So now, Mr. Lee, you are recognized for 5 minutes.

STATEMENT OF MR. ALEX LEE, DEPUTY ASSISTANT SECRETARY FOR SOUTH 
 AMERICA AND CUBA, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Lee. Chairman Duncan, Ranking Member Sires, and members 
of the committee, thank you for this opportunity. I would like 
to focus my comments on some of the implications of our 
bilateral relationship and our regional interests and global 
concerns related to the Colombia peace process.
    In naming Special Envoy Aronson to his position, Secretary 
Kerry noted, quote:

        ``Today Colombia is a critical ally for the United 
        States. But despite Colombia's remarkable story and all 
        that it has achieved as a nation, the country has 
        continued to suffer the tragic effects of one of the 
        longest running wars on the planet. For 20 years, the 
        United States has been Colombia's steadfast ally. We 
        know that if the parties were able to reach an 
        agreement, this would unleash enormous potential for 
        the Colombian people, and it would have a profound 
        impact throughout Latin America.''

    I am not suggesting that we get ahead of ourselves. Make no 
mistake, the talks are at a critical stage. We condemn the 
continuing terrorism by the FARC. We agree with President 
Santos that these actions are wholly inconsistent with a 
commitment to peace. At the same time, we should bear in mind 
that the progress in achieving peace is part of a virtuous 
circle which benefits not just the victims but all of Colombia 
and, indeed, the wider community of nations. Building a durable 
peace can help Colombia invest more in education and 
development. With growing security and defense of human rights, 
more children will succeed, and vulnerable populations will 
begin to participate fully in the economic and social life. 
Broad-based economic growth, together with a safe and secure 
population, will boost Colombia's ability to engage regionally 
and globally to support our common interests.
    This virtuous circle is not theoretical. It describes 
Colombia's history over the last decade. We got to this point 
not by accident but rather by ongoing international effort, 
including strong bipartisan support in Washington. The support 
of the U.S. Congress has been instrumental to everything we 
have achieved. Together with Colombia, we have worked to 
promote reconciliation, compensate victims, return land to the 
displaced, and prepare for the post-conflict period. We are 
helping Colombia build safer communities, training police, 
judges, and prosecutors.
    Since 2000, kidnappings in Colombia have plummeted 90 
percent, and homicides have dropped nearly 50 percent. There 
has been significant media attention to the 2014 increase in 
coca production as well as Colombia's decision to halt aerial 
eradication in the coming months. We are working with the 
Colombian Government to develop alternative plans. We 
anticipate that Colombia will support expanded manual 
eradication, more vigorous interdiction to compensate for the 
loss of aerial eradication, and continued U.S. assistance will 
be important to this effort.
    Colombia's commitment to combat counternarcotics has been 
evident for more than a decade and has led to a trend of 
declining coca cultivation. We do not question Colombia's 
commitment to counternarcotics. With our Colombian partners, we 
are expanding educational opportunities, including training 
more than 800 Colombian public school teachers in English. We 
are investing in opportunities for vulnerable groups. Through 
the Women's Entrepreneurship of the Americas, we helped more 
than 80 women business owners grow their businesses. We are 
strengthening their already robust economic ties with a 
Colombia that has significantly reduced poverty. The U.S.-
Colombia Free Trade Agreement boosted U.S. exports to Colombia 
by 42 percent, to $20 billion since 2012.
    We are also making progress in promoting human rights, 
although they remain significant challenges. The government 
provides protective services for over 7,500 at-risk citizens, 
which is commendable, yet much more must be done to prosecute 
those who kill, attack, and threaten human rights defenders and 
others. Our bilateral regional security plan will implement 
more than 200 capacity-building programs in Central America and 
the Caribbean. And we have trained over 22,000 Colombian law 
enforcement officials to share their expertise in the region.
    I would urge caution in any talk of a peace dividend. The 
investments we have made in Colombia over close to two decades, 
whether through foreign assistance, continuing messages of 
bipartisan political support in Washington, or in time invested 
in building relations, have benefited the United States in 
security, economic, and political gains. But we should not 
spike the ball at the 5-yard line by cutting back on this 
investment.
    Chairman Duncan and Ranking Member Sires, members of the 
committee, those of us who have followed Colombia closely 
during the last decade have been profoundly inspired by how 
Colombia has turned itself into a self-confident, prosperous, 
and sought-after partner on the world stage. I know that if we 
can help the Colombian people reach their enduring quest for 
peace, we will come to see how much more Colombia has to offer. 
Thank you very much.
    [The prepared statement of Mr. Lee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
    
                              ----------                              

    Mr. Duncan. I want to thank the gentleman.
    I will now open it up for the question segment. And I 
recognize myself for 5 minutes. In March, Mr. Aronson, you held 
separate closed-door meetings with the Colombian Government and 
the FARC negotiators in Havana. This was the first meeting 
between the U.S. and FARC since 1998. What role does the FARC 
say the U.S. should play in the region going forward? What is 
their thought process about the U.S. involvement?
    Mr. Aronson. Well, thank you for that question, Mr. 
Chairman. I think they were, frankly, curious about what role 
we would play in two dimensions. One, are we supportive of the 
peace process? And will we be supportive of the settlement? And 
they have some legitimate concerns in that area, particularly 
about their own security, given the history of the Union 
Patriotica in 1985. And I was able to tell them that in fact if 
they disarm, demobilize, reintegrate, get out of criminal 
activity, meet their responsibilities under justice, you know, 
the United States is not hostile to an agreement that includes 
rural development and land for campesinos, and roads and 
bridges to allow peasants to get their crops out of the 
country. So I think that is an important message. It is a 
similar message, frankly, that I delivered to the FMLN a long 
time ago when we were trying to negotiate an end to the 
Salvadoran war.
    Mr. Duncan. They are pretty clear on the U.S. position that 
they need to lay down their arms and stop the violence and be 
held accountable under the rule of law?
    Mr. Aronson. I don't think they have any illusions about 
that. But I would say that is the coming government's position, 
and we completely agree with that and support it. But I am 
always careful to make it clear that we don't have a separate 
position from the Colombians. But I don't think they have any 
illusions about those issues.
    Mr. Duncan. So is your role more of just one of observation 
if you are not carrying a message from the American Government 
about what peace looks like?
    Mr. Aronson. I do carry such a message. But it is in 
support of the Colombian Government's agenda. I certainly make 
it clear that we support both the implementation of an 
agreement in areas that we have been supporting for many years, 
such as I mentioned, rural development, but also that we 
support the government's demand that they disarm and demobilize 
and reintegrate, that they give up criminal activity. You know, 
they have no illusions that that is what the United States 
believes.
    Mr. Duncan. If the FARC refuses to lay down their arms, 
demobilize, or face jail time or some sort of reparations for 
the crimes that they have committed, what hope is there for 
justice and a peace accord?
    Mr. Aronson. What hope is there for justice in a peace 
accord?
    Mr. Duncan. What hope is there for justice and a peace 
accord? If they are refusing to meet some of the requirements 
that Santos has put forward, and I believe the free world 
stands with that--lay down your arms, demobilize, and pay 
reparations for your crimes, whether that is jail time or what 
not--what hope is there?
    Mr. Aronson. Well, I think if they don't lay down their 
arms in a reasonable timetable, there is no hope for a peace 
agreement. No government of Colombia is going to make a peace 
agreement in which they remain an armed force for some extended 
period of time. So I think disarmament is key. Justice for 
victims and the transitional justice that you mentioned is also 
a significant element of the end game. But if they are not 
willing to embrace disarmament, then you are not talking peace, 
you know, you are talking some armed truce. I don't think the 
Colombian Government is going to accept that.
    Mr. Duncan. Right. Let me shift to Mr. Lee.
    I traveled down with Chairman Royce back in November. And 
we visited with President Santos in Bogota. But before we got 
to Colombia, kind of reversing our trip back, we spent some 
time in Peru. And we saw the manual eradication process of coca 
fields in the mountains.
    And when Chairman Engel gets here, he was there. We 
actually participated to see the significant effort, really, to 
eradicate those crops manually. And so I am not going to 
question the Colombian people's decision because I believe it 
was the Colombian people's decision not to do aerial spraying. 
But I do think that not allowing aerial spraying will have a 
detrimental effect on the progress made to eradicate the coca 
crops because I believe that the manual process is time-
consuming, labor-intensive, and it is going to be tough in the 
mountains of Colombia. So what are your thoughts on that?
    If we don't eradicate the coca crop, then we don't cut off 
the funding source for the FARC. How is that going to affect 
their ability to operate? So you can talk broadly about the 
eradication aerial spraying issue, but kind of shift it more 
toward funding for FARC if you don't mind.
    Mr. Lee. We respect the decision and the sovereign decision 
of the Colombian Government to terminate aerial eradication. We 
may regret it, but that is a decision that we respect that the 
Colombian Government has made. But we are in the process of 
thinking through with the Colombian Government on ways that we 
can both work together to take advantage of the various tools 
that we have and augment them to address the counternarcotics 
challenge because both countries remain firmly committed to 
combating narcotics cultivation, production, and trafficking. 
And some of the things that we are talking about we have been 
already doing, such as manual eradication or interdiction, and 
in addition to developing and prosecuting cases against major 
traffickers.
    But there are also additional tools that we are in 
discussion with the Colombian Government in order to reach a 
package that we can put forward to our respective leaders to 
deal with this challenge. It is our goal to cut the recipients 
of narcotics trafficking to all illicit actors, including the 
FARC, including those that have no pretense of ideological 
affiliation. And we see a Colombian Government equally 
determined in that shared goal.
    Mr. Duncan. You know how difficult it is to manually 
eradicate a coca tree. You can't just machete these things. You 
need to pull them up by the roots.
    Mr. Lee. We are aware of the particular challenges of 
manual eradication. It puts the eradicators in a certain 
danger. It is labor- and time-intensive. It requires security 
packages. But as I said, I think there are a variety of other 
tools that we can use in combination to----
    Mr. Duncan. I agree with you. Let me ask you this. Are you 
aware of USAID's, anything that they are doing in Colombia for 
alternative crop production, training these farmers? A lot of 
them are peasants hired by the FARC to go out and plant these 
areas, slash and burn the jungle, come back and replant, and 
then harvest the coca leaves. So are you aware--and what we saw 
in Peru is a USAID program which I think is very effective in 
alternative crop training. Are you aware of anything going on 
in Colombia like that?
    Mr. Lee. That is one of the areas that we are talking with 
the Colombian Government. We have done it in the past.
    Mr. Duncan. Is Colombia doing any of that as well?
    Mr. Lee. I think that it has--we did it for a while, and we 
are looking at ways in certain areas that we can start up 
additional programs. But I think it depends on specific 
locations.
    Mr. Duncan. All right. And I will finish up with this. The 
FARC is known to have deep ties with Hezbollah and other 
transnational criminal organizations. This committee well aware 
knows very fully my interest in the Iranian threat in this 
hemisphere and Iranian activity in this hemisphere, either 
through its proxy Hezbollah or directly. And I am curious about 
what impact a peace agreement may have on Hezbollah and Iran's 
activities in the Western Hemisphere. If you could touch on 
that.
    Mr. Lee. That is a bit of a hypothetical. I guess I would 
make the observation that we remain acutely alert to whatever 
activities Hezbollah or other groups or Iran in the region, we 
certainly will call out any activities that we find suspect. 
But I will have to see--we will have to see how a peace process 
would affect those sets of relationships because I am not in a 
position to forecast it.
    Mr. Duncan. I would encourage the Bureau of Western 
Hemisphere Affairs to take a closer look at the Iranian 
activity directly or indirectly through its proxies in the 
Western Hemisphere. I would recommend that the Bureau of 
Western Hemisphere Affairs talk with General Kelly at SOUTHCOM. 
I would recommend that the Bureau of Western Hemisphere Affairs 
be very aware of what is here.
    And, with that, I will turn to the ranking member, Mr. 
Sires.
    Mr. Sires. I see that the ranking member of the full 
committee is here, and he asked me if he could speak.
    So I am going to let Congressman Engel.
    Mr. Duncan. Mr. Engel, you are recognized.
    Mr. Engel. Thank you very much, Chairman Duncan. Thank you 
for calling the hearing.
    Mr. Sires, thank you very much for your courtesy. And I 
listened as I came in to some of your observations, Mr. 
Chairman, about the trip we took together to Colombia and Peru 
several months ago. And these trips are always eye-opening. In 
my previous life, I served as chairman of this subcommittee. 
And I think of all the work I have done, this is the most 
gratifying.
    There is so much that needs to be done, so much where our 
presence is necessary, and so much--when it comes to Colombia--
progress that has been made. And I have been to Colombia many, 
many, many, many times. And each time I go, I always feel an 
exhilarating feeling because when you look at Colombia on the 
verge of really becoming a failed state not that long ago, the 
United States has had no better partner and ally in South 
America than Colombia. And in the 1990s, they teetered on the 
edge of being a failed state. And over the last decade, the 
progress made in Colombia has just been unbelievable.
    A couple of statistics: Between 2002 and 2014, Colombia saw 
a 90-percent decrease in kidnappings and a 54-percent reduction 
in homicides. And it was partnership here in Washington that 
helped with that process. When the Clinton administration and 
the Republican-controlled Congress got behind Plan Colombia in 
the late 1990s, there were clear goals: Weaken the FARC to the 
point that they would sit down at the negotiating table and 
close the chapter on the longest ongoing armed conflict in the 
Western Hemisphere. That is precisely what is happening now.
    And I want to thank Special Envoy Aronson for supporting 
the Colombian Government during these ongoing negotiations. It 
is very, very important, and I commend all your good work.
    And Mr. Secretary, as well, we appreciate all the people 
that just do so much.
    The Western Hemisphere is our hemisphere. And I have long 
thought that we don't give it the attention it deserves, mainly 
because we always seem to have pressing problems elsewhere in 
the world. But we should really remember that things that 
happen here have a direct effect on us in the same hemisphere. 
So our work is obviously not over. And now more than ever, the 
United States must continue to stand with Colombia. We have 
supported the Colombian Government through years of war. And I 
believe we must support the country in peace just as in war. 
And if a peace agreement is reached, we in Congress need to do 
our part to provide Colombia with the assistance it needs.
    So thank you for allowing me the opportunity to join you 
today. And let me ask the witnesses, both of them, what role do 
you envision for the United Nations, the OAS, and other 
international bodies if a peace agreement is reached with the 
FARC? Do you think that U.N. peacekeepers will be needed in 
Colombia? And I personally strongly support new assistance for 
Colombia to implement a peace agreement with the FARC. At the 
same time, though, Colombia no longer needs the U.S. to provide 
funding in the same way it once did. So if a peace deal was 
reached with the FARC, how do you envision foreign assistance 
to Colombia over the next 5 to 10 years?
    Mr. Aronson. Mr. Engel, thank you for those very helpful 
remarks and your personal remarks toward me. And I just want to 
underscore what you said. Latin America usually suffers because 
we don't pay enough attention. But when we pay attention in a 
bipartisan way, you know, we can have great success. We did so 
in Central America when we negotiated a bipartisan accord on 
Central America in 1989 and defeated the Sandinistas with 
Violeta de Chamorro's democratic government and ended the war 
in El Salvador. Plan Colombia, as you say, is another great 
example of that.
    The parties have discussed possible roles for outside 
monitors and verifiers in a disarmament demobilization regime. 
They haven't agreed on exactly what role for what agency, but 
they have been talking to both the OAS and the U.N. and UNASUR. 
And I think that it is not unlikely that there will be some 
kind of verification monitoring role for one or several of 
those institutions. But, again, the parties haven't reached 
agreement on that. As for the funding levels, I will let Deputy 
Assistant Secretary Lee discuss that. I think he is the best 
source.
    Mr. Lee. Thank you very much, Congressman Engel.
    Right now we are essentially in a wait and see mode on how 
the peace process unfolds. That said, many of the things that 
we have been doing, particularly in recent years, and the 
programs that we have been championing to Congress and received 
support from Congress, and working with our Colombian partners, 
actually will form a good basis in any peace agreement because 
many of the things that we are doing include strengthening law 
enforcement, strengthening rule of law, working for building 
capacity of NGOs to monitor human rights. A whole variety of 
humanitarian programs that support the victims law, which 
provides a whole variety of assistance to many of those who 
have been direct victims of the conflict. There are 
approximately 7 million individuals, most of those have been 
internally displaced. And so we provide prevention support. We 
provide comprehensive assistance and job retraining, medical 
attention. Those kinds of programs, obviously, I think will 
continue.
    We also have programs that have been very targeted to Afro-
Colombians and indigenous groups. And since about 2011 to this 
year, you know, we have channeled about $61 million for 
programs that help these groups that have been 
disproportionately hit hard by the conflict to get employment, 
to get land titles, to seek legal redress. So these kinds of 
programs I think are already in place. We will probably 
continue, expand, or contract, depending on what our Colombian 
partners come to us and say after they have negotiated a peace 
agreement. But we have I think a basis on which to build, a 
good foundation on which to build, that could support a peace 
process.
    Mr. Engel. Well, thank you very much, again, both of you 
for your good work.
    Chairman Duncan, Ranking Member Sires, thank you for your 
courtesy.
    Mr. Duncan. Thank you.
    Ranking Member Engel was, along with Chairman Royce, on the 
trip in November, as was Mr. Yoho from Florida, and Mr. Salmon, 
where we saw the eradication process that I talk about. We also 
had the opportunity to sit down with President Santos and hear 
about the progress as of November. So it was very informative.
    The Chair will now go to recognize the gentlelady from 
Florida, Ms. Ros-Lehtinen, for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Mr. Aronson, on February 28, the Colombian Navy seized a 
Chinese freighter en route to Havana. And the vessel's cargo? 
Around 100 tons of powder, 2.6 million detonators, 99 
projectiles, and around 3,000 cannon shells. The weapons and 
the war materiel were hidden in the hull of a ship under 28,451 
tons of cereal. Colombia's Defense Minister had said his 
military had confiscated and destroyed the war materiel from 
the FARC. So the Chinese ship was captured by the Colombian 
Navy, and it was scheduled to make stops in the Colombian ports 
of Cartagena and Barranquilla.
    So, Mr. Aronson, in your trips to Cuba did you ask the 
Cuban authorities if the large weapons shipment bought by 
Havana was intended for the FARC? Did you ask the Cuban 
authorities the reason for hiding the shipment under tons of 
grain?
    Mr. Aronson. Congresswoman, it is a very important 
question. But let me make it clear I don't engage with the 
Cuban authorities on any bilateral issue. I really have only 
talked to them once when I was down there, about the progress 
of the peace talks. So that wouldn't have been an issue that I 
would normally be involved in. But I think DAS Lee----
    Ms. Ros-Lehtinen. If I could interrupt, but when you talk 
about peace talks and you have a vessel's cargo filled with war 
materiel, and then you have these peace talks that are going on 
in Cuba and it is given as a justification for lifting all 
kinds of--trying to lift all kinds of sanctions, it calls into 
question what these peace talks are all about. If the peace is 
about the FARC and the FARC, according to the Colombian Defense 
Minister, he says it is for the FARC, and the FARC is talking 
in Cuba with Colombians about peace, what are they doing with 
100 tons of powder, 2.6 million detonators? Is that outside of 
your scope? It is about peace talks with a group that is 
transferring war materiel.
    Mr. Aronson. What I was trying to say, Congresswoman, and 
maybe I didn't speak clearly enough, is that I don't engage the 
Cuban Government or Cuban officials on bilateral issues or 
issues that are not directly on the table of the negotiations. 
That issue hasn't been on the table. That is all I was saying.
    Ms. Ros-Lehtinen. Okay. Let me just continue. I realize my 
time is limited.
    So I remain very skeptical about these talks due to so many 
questions that remain about justice for victims, human rights, 
disarmament, impunity. And last month, along with my colleagues 
Mario Diaz-Balart and Carlos Curbelo, we wrote a letter to 
Attorney General Lynch expressing our concern that Simon 
Trinidad may be permitted to attend the talks in Cuba. Trinidad 
was the only person held responsible for the hostage-taking of 
three Americans. He was convicted of that crime in U.S. courts, 
sentenced to 60 years. It is not the first time the Obama 
administration releases criminals who have been targeted or 
even killed--who have targeted or even killed U.S. citizens. 
Gerardo Hernandez, one of the Cuban 5, was released by Obama. 
He was convicted of conspiracy to commit murder of three 
Americans and one U.S. resident. I fear that the Obama 
administration may offer up FARC leader Simon Trinidad in 
return for nothing in these talks.
    You recently stated that Trinidad has not been discussed at 
all with the FARC. So my first question is, has the FARC 
requested to anyone, do you know of anyone they have requested 
for the U.S. to allow Simon Trinidad to attend the talks in 
Cuba?
    Mr. Aronson. I think, just to correct the record, I think 
you are referring to a Washington Post article that said that--
but it wasn't exactly accurate. So I don't want it to be taken 
as my words because they weren't my words. But I have not--I 
have never seen any request from the FARC or the Government of 
Colombia that Mr. Trinidad be released. And I made it clear 
that that is not a subject I would be prepared to talk to the 
FARC about. It is not on the table.
    Ms. Ros-Lehtinen. So, as far as you know, no one has 
discussed Trinidad with the FARC, which I think is one of their 
top priorities. Have you discussed Trinidad's fate indirectly 
with the FARC or through Colombians or other interlocutors?
    Mr. Aronson. Yeah. I meant to finish the point. Early in my 
visits to the negotiating process, the FARC raised the question 
about whether or not Trinidad could join the talks in some 
fashion, Skype or something like that. And neither the 
Government of Colombia--and it is really their decision if they 
wanted to propose that, but they have not proposed that, and I 
have not suggested that at this time.
    Ms. Ros-Lehtinen. Thank you.
    And I just have a few seconds left. Has the FARC asked the 
United States to remove the FARC from the foreign terrorist 
organization list if a deal is signed? Is the U.S. considering 
removing FARC from the terrorist list?
    Mr. Aronson. They have not asked for that, but I would not 
be surprised if they had some hope for that, but that isn't a 
subject they have asked yet.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Duncan. Absolutely.
    The Chair recognizes the ranking member for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, I have been involved with Colombia a long time, 
long before I ever became a Congressman. My district has a 
large number of Colombians. I have been going to Colombia many 
times.
    And I talk to the people all the time, you know, when I go 
back to the district. And one of the things they are concerned 
is that we may be giving the FARC much too much and allow them 
just to become part of the society without any consequence at 
all for the crimes that they committed.
    And to me, it is going to be more important for us to 
support Colombia if anything comes out of this treaty than 
before. And one of the concerns that I have--and I expressed 
this to Secretary Kerry--is the fact that we are involved in 
this process, the fact that America is involved. It is my view 
that this is an internal conversation within Colombia, with the 
FARC, with the Government of Colombia, who are a country of 
their own.
    I don't see why we have to be in this negotiation. I tell 
you this because I think--I think--that we may be blamed if 
this doesn't go well. You know, we don't have a great history, 
South America, in the past. And I am concerned that if these 
negotiations don't go well, we are going to be used as the 
scapegoat in saying: Well, you know, the United States was 
there and they were asserting more influence than they needed 
to be and trying to influence the Santos Government or saying, 
Don't give in, don't give in.
    So I expressed this to Secretary Kerry. I know you don't 
feel the same way, okay. So tell me why. Tell me if you ever 
had this scenario. You know, have you ever thought of this 
scenario?
    Mr. Aronson. Well, I appreciate the question. And the 
larger question you raised is very important every time we are 
involved in Latin America, which is to not overdo our role, not 
to impose our role, not to be----
    Mr. Sires. You don't want to be the ugly Americans.
    Mr. Aronson. Exactly. And I think we have learned some 
lessons over decades that I think have served us well in the 
region. And I might quarrel with you in a little bit in another 
forum if we had time about our record in the region because I 
think there is many, many things we can point to where we can 
be very proud of the role the United States has played.
    Mr. Sires. Yeah, from this perspective. But from the people 
in the Western Hemisphere, they are not so good.
    Mr. Aronson. Well, let's agree to disagree.
    Mr. Sires. Okay.
    Mr. Aronson. I think we still have work to do. But, look, 
you are sending a strong caution to me about my role, which I 
accept, which is: Don't substitute a U.S. view for a Colombian 
view.
    And I don't intend to do that. I am only there because the 
President of Colombia asked the United States to appoint such a 
person. I have to respect his judgment that he thinks it is 
useful.
    And I would urge you to talk to his government and his 
negotiations about whether they feel it has been helpful to the 
process. I think I could discuss some ways that I think it has 
been helpful, but I will leave that to the Colombians to 
decide.
    But your overriding point I think is legitimate. I am not 
worried about being blamed. I would rather somehow be blamed or 
I don't think that would happen than to be accused of having 
failed to respond when Colombia asked us to help.
    You know, if they think we can help end this war, which as 
you describe, has been a horrendous, terrible cycle of 
destruction and death in this country for 50 years, if we can 
help or they think we can help, I believe we should try. But 
your caution about being overbearing and, you know, throwing 
our weight around is a good caution. I respect what you are 
suggesting.
    Mr. Sires. I also say that because Uribe, he negotiated a 
peace treaty with the paramilitaries. And we were not really 
involved. We didn't send a special envoy when we asked them to 
drop their arms.
    Mr. Aronson. Well, I don't think that was a successful 
negotiation, but each President of Colombia, I think has to 
decide in the circumstances what is helpful. I don't know, you 
know, that the circumstances----
    Mr. Sires. Well, there was a significant reduction of 
violence and human rights violation that Uribe negotiated.
    Mr. Aronson. Well, I am not sure what you are referring to. 
I give great credit to President Uribe for his leadership in 
confronting the FARC, and he saved his country, and I speak to 
him often. But I am not sure what you are referring to.
    But regardless of which process you are referring to, 
President Santos is the democratically elected president of the 
country. I feel he has a right to make such a judgment. But I 
take your caution that we have to be careful in the role we 
assume.
    Mr. Sires. You know, I was one of the few Members to went 
to his swearing in.
    Mr. Aronson. To President Santos?
    Mr. Sires. President Santos' swearing in. We did not send 
one high-level dignitary--we were there, and we got rained on. 
Right or wrong?
    Mr. Aronson. I know, Congressman----
    Mr. Sires. At the time, I remember telling my colleague, 
you know, that where is the high-level dignitaries from our 
country here?
    Mr. Aronson. Right. Right.
    Mr. Sires. And it really was, to me, it was not right.
    And I will just say something about the programs, you know, 
and I will finish with this: Some of these programs were 
started under Uribe, especially the Afro-Colombia programs, 
because I know that my colleague was very instrumental in 
talking to the leaders and was instrumental in getting Santos 
to continue the programs.
    Mr. Aronson. Yeah.
    Mr. Sires. So we have been involved in Colombia a long 
time. So my concern has been this: You know, I don't want us to 
be blamed for failure. You know, we get blamed for just about 
everything in the world.
    Mr. Aronson. This is true.
    Mr. Sires. So.
    Mr. Aronson. Well, thank you, Mr. Sires.
    Mr. Sires. All right. Thank you. I will end there.
    Mr. Duncan. I will thank the gentleman.
    I also have an article from Jose Cardenas, who is in the 
front row there, that I would like to submit for the record. It 
is worth reading on the committee.
    So, without objection, so ordered.
    The Chair will now go to Mr. Yoho from Florida for 5 
minutes.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate it.
    Appreciate you gentlemen being here.
    And I was just going to reference that article of Jose 
Cardenas, ``Colombia's Peace Talks are on the Brink of 
Failure.'' What led to the increase in the FARC terrorist 
attacks? What led to this? I mean, we are on, what, round 38 of 
the peace talks?
    Mr. Aronson. Something like that, yes.
    Mr. Yoho. What do you feel has led to this?
    Mr. Aronson. The breakdown?
    Mr. Yoho. Yeah.
    Mr. Aronson. You know, it is a good question. There was a 
unilateral cease-fire declared by the FARC in December, but a 
unilateral cease-fire is inherently unstable. There are no 
demarcations. There is no separation of forces. There is no 
monitors separating the two sides. And so in the first few 
months of the year, as I think some of your colleagues noted, 
there has been a--there was a significant decrease in military 
encounters in violence and killings of police and Army that 
were----
    Mr. Yoho. Right. And that is encouraging. But, you know, 
now we are at the----
    Mr. Aronson. Correct.
    Mr. Yoho [continuing]. End of the 37th talk, and we see 
them backing away.
    Mr. Aronson. Yeah, I was just trying to get to that point. 
The precipitating cause of it was this attack in Cauca upon an 
Army unit that the FARC attacked and killed 11 soldiers and 
wounded 17 others. And I think President Santos felt that he 
wasn't going to stand for that. He reassumed aerial bombing and 
started to hit the FARC very hard and has done so. They have 
lost about 42 guerrillas, I think, since that time.
    But I think it is a symptom of the fact that we are not at 
the end of the peace process in that the sides are jockeying, 
and the FARC wants to show that it is not going to be pressured 
into agreeing to something. But if you are saying, is it a bad 
sign, of course, it is a bad sign. It is a worrisome sign.
    Mr. Yoho. Well, it leads me to the next question because it 
says in this study, and this is when, you know, Germany is 
getting involved back in April, it says they would have a 
panel, it would have 11 members, 3 of whom could be foreigners, 
and it would have 3 years to perform its work on assessing a 
so-called cease-fire. And it kind of worries me that, you know, 
if they are just posturing now, we have got a long way to go.
    And what influenced the Colombian Government to move away 
from the chemical eradication of the cocaine fields?
    Mr. Aronson. I think their stated reason was--and Alex Lee 
can augment this, is that they were concerned about a study by 
an organization that claims an affiliation with the World 
Health Organization that claimed that spraying of glyphosate 
was a carcinogen potentially, but----
    Mr. Yoho. But when you have 230,000 people killed over a 
course of years, what is more dangerous? And that is something 
I think that should be negotiated maybe a little bit 
differently.
    I want to move on to another question. Do you see President 
Santos suspending the talks and remounting the military 
offensive against FARC because of what just happened with this 
article that we are reading where they have increased their 
terrorism?
    Mr. Aronson. Well, he definitely has stepped up the 
military offensive against the FARC, and the Army has had 
numerous successes. He did not choose to suspend the talks.
    Mr. Yoho. Mr. Lee, what about you?
    Mr. Lee. I will go on part about the Colombian Government's 
decision to halt aerial eradication using glyphosate. 
Basically, it was a decision that the Ministry of Health in 
Colombia saw a report saying that there was a possibility that 
the use of glyphosate in aerial eradication was carcinogenic, 
and then they just made a decision on that.
    And so, you know, like I said a little bit earlier, we may 
regret that decision, but we recognize that this is the 
Colombian Government's sovereign right. And we are very 
encouraged by the conversations we are having with the 
Colombian Government now on figuring out how we can step up our 
cooperation in a variety of other areas to compensate for their 
decision to remove aerial eradication.
    Mr. Yoho. Okay. Let me ask you another question for either 
one of you. What influence has Venezuela had in leading up to a 
breakdown of these peace talks? Especially when we see, you 
know, Hezbollah being a proxy of Iran moving in there. And then 
with the follow up of that, if the peace talks are effective 
with FARC, do you see ELN filling the void that is left?
    Mr. Aronson. On the first item, Congressman, I have not 
seen any type of evidence that Venezuela played any role in 
this breakdown of the cease-fire. You know, they claim that the 
war injures their interests, that there are many millions of 
refugees that come across their border, and there is 
instability. And so they have their own interest in wanting to 
see it end. But I haven't seen any evidence at all that they 
played any role in that.
    And as far as the ELN, as you know, the Government of 
Colombia has made several attempts to reach out to the ELN to 
see if there is a framework that they could agree to, to start 
talks. The ELN has resisted the basic item that we--I talked 
about with Mr. Sires and Mr. Duncan, which is laying down of 
weapons and disarmament. And so the government has said, unless 
you are willing to commit to that, there is nothing to talk 
about.
    Mr. Yoho. I appreciate it.
    We are out of time, and I want to yield back. Thank you.
    Mr. Aronson. But I don't think that they will fill the same 
vacuum militarily. If the government makes peace with the FARC 
and the FARC disarm, the ELN doesn't have as many cadre. It 
doesn't have the same capabilities. But they can cause a lot of 
damage. I don't want to be blase about it, but they are not at 
the same strength as the FARC.
    Mr. Duncan. Gentleman's time has expired, and I thank him.
    I will now go to the gentlelady from Illinois, Ms. Kelly, 
for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Earlier when asked, you said to my colleague that we are at 
the table because we were asked to be at the table by the 
Colombian President. Well, in your view, what are the most 
significant U.S. interests in seeing that a negotiated end to 
Colombia's internal conflict occurs?
    Mr. Aronson. Well, that is a very good question. You know, 
we, as was discussed earlier in this hearing, have had a 25-
year partnership with Colombia. They have been our ally and 
friend when we needed them, and we have been theirs, I think. 
And so we have invested enormous amount in the success of this 
country. I think most Colombians give us enormous credit for 
the role we have played, though they took the lead. And I would 
emphasis, they deserve most of the credit. They raised their 
taxes. They expanded their Army.
    But, obviously, to see the success of Colombia in ending 
this war would be also seen as a foreign policy bipartisan 
success for the United States. It would clearly contribute to 
regional stability. Under the agreement, the FARC will have to 
renounce and get out of drug trafficking, illicit mining, 
extortion, kidnapping. And, obviously, that is a blow to 
transnational crime if it were to succeed.
    And then I think, you know, there is a great moral benefit, 
which is, you know, not seeing another 7-year-old Colombian 
infant step on an explosive device and be killed. I mean, I 
think we all care about the Colombian people. The chairman 
expressed his strong, personal feelings, and I think as 
Americans we want to see others, you know, enjoy the fruits of 
peace. And, you know, the Colombians have certainly known the 
horrors of war long enough.
    Ms. Kelly. My other question, you talked about drug 
trafficking, and I think we were saying up here what we could 
do to eradicate that. What percentage of their trafficking 
comes to the United States?
    Mr. Aronson. I will let Deputy Secretary Lee answer that.
    Mr. Lee. I don't have the exact figure, but the majority of 
their cocaine comes from--the last studies that I remember 
looking at showed that the majority of the cocaine that was 
consumed in the U.S. came from Colombia. I have to update that, 
relook at that, but that certainly was the case several years 
ago.
    Ms. Kelly. So, of course, I would like to see that end, but 
also, I also see it on the part of the United States that if we 
didn't ask for or want or use so much that would help eradicate 
some of it also.
    Mr. Lee. Correct.
    Ms. Kelly. I yield back.
    Mr. Duncan. I thank the gentlelady.
    And the Chair will recognize the gentleman from Arizona, 
former chairman of the Western Hemisphere Subcommittee and now 
chairman of the Asia Pacific Subcommittee for 5 minutes.
    Mr. Salmon. Hi. This whole process is starting to remind me 
of our situation with Iran. We have got a President that wants 
to negotiate a deal so badly that any deal will do. And I am 
kind of wondering if we are in the same spot here. We have 
spent $10 billion through Plan Colombia, courtesy of the U.S. 
taxpayer.
    Peace is always a desirable outcome. We all want that. But 
if this peace deal is not a good deal, and it ends up throwing 
away all the gains or even many of the gains that the U.S. and 
Colombia has made and fought for over the last 15 years through 
negotiating away tactical things to achieve a strategic end of 
peace, would this not be a major problem for the U.S. national 
interest and a waste of almost $10 billion in American tax 
dollars?
    And can you explain to me how these peace talks are any 
different than the other 38 that have happened? Is this a new 
and improved one, and how is this going to be any better?
    Mr. Aronson. Thank you, Congressman.
    Just to clarify, the reference to 38 is 38 sessions in this 
peace process. This is the fourth sort of formal negotiation 
with the FARC.
    Mr. Salmon. Okay.
    Mr. Aronson. But doesn't change the input of your question. 
I just want to clarify that.
    Mr. Salmon. That is fine. I guess, my point is that we have 
been at this a long, long, long time, and there has been 
incredible violence still coming from the FARC. It doesn't seem 
like they are really serious about it. It is kind of like with 
us, you know. Our President comes out and says we've got a 
framework for a deal and their supreme leader in Iran comes out 
chanting ``Death to America.'' And we don't have a deal, and 
they can't come on our military bases. And I am just seeing so 
many eerie comparisons here, and I am just wondering, you know, 
is this going to cause more problems than it creates?
    Mr. Aronson. Well, I think President Santos has committed 
himself to peace because he got a mandate from his democratic 
constituency to do so. So I think we can't question his, you 
know, commitment to the process because he's the leader of that 
country, and he had a mandate from the population to pursue the 
peace.
    You know, these are very hard questions, and I don't envy 
President Santos in making them. There are lots of signs of 
progress in the peace talks, and then there is this escalation 
of violence which calls into question the FARC's commitment and 
how serious they are. I don't personally think that there is 
any evidence that President Santos has or would give up, you 
know, gains that are important to the United States and that we 
would somehow come to regret a peace settlement that they would 
negotiate. I haven't seen any evidence of that. And I think 
that we are ignoring the gains in the counternarcotics effort--
--
    Mr. Salmon. Those are a mess.
    Mr. Aronson. Let me just finish my point. If the FARC 
actually dismantles its network, gets out of--you know, they 
are one of the largest drug-trafficking cartels in the world. 
It is not a bad thing if they disarm and get out of the drug 
business and stop illegal mining, extortion. I mean, it is a 
good victory for democracy and the rule of law.
    And it is an ally who is known as one of America's closest 
ally. Congressman Sires was pointing out that oftentimes we 
neglect Latin America. This is a good counter example where we 
have been a partner to Colombia, and I think seeing it to----
    Mr. Salmon. I am going to reclaim my time. We have been a 
great partner. And I have met with President Santos on numerous 
occasions as well. I think he is a great guy. He was part of 
the Uribe administration with President Uribe. And, honestly, 
all the money that we spent in Colombia is beside the point. It 
would have never happened without the political will of one 
man, and that was President Uribe. I don't think it would ever 
happened without his political will to finally get it done.
    And God bless him for that. He got it done.
    And now it seems like a lot of the things that he has done 
and accomplished could unravel. I know that he has been very 
critical. He has been in my office several times very critical 
of these peace negotiations, that a lot of the people in 
Colombia don't support those peace negotiations. And so all I 
am saying is that I think it is all good food for thought.
    You are right. President Santos is the elected leader, 
democratically elected leader of Colombia. I think he is a 
great guy and a good leader. But we also have a responsibility 
to advise and counsel. We don't tell them what to do. We didn't 
tell them what to do in Plan Colombia. It was a partnership.
    Mr. Aronson. Correct.
    Mr. Salmon. We work directly with them. And I think we owe 
them some of our skepticism that maybe this peace process isn't 
all it is cracked up to be. Maybe there are other avenues that 
need to be pursued.
    Mr. Aronson. Well, I have very open and candid 
conversations with President Santos and his negotiating team. 
We have known each other for 20 years. I have known President 
Uribe for the same amount of time. I just had breakfast with 
him, in fact. It is a democratic society, and those skepticisms 
and criticisms are a part of the democratic process, and I seek 
out, you know, other voices.
    And you are right that there is not unanimous support. I 
think the peace processes are kind of a roller coaster. When 
the demining agreement was announced, and it was actually the 
start of an effort to start removing mines, and it looked like 
the security situation was getting better, there was an uptick 
in support. Now with this violence and the FARC's attacks on 
infrastructure, there has been a decrease.
    And I don't want to suggest that we are not, you know, open 
and sharing ideas and thoughts about it because we are. But at 
the end of the day, this is our ally. This is our friend. And 
that $10 million, which is a significant amount of money, was 
well spent. You are right that President Uribe deserves great 
credit for the success, and I have told him that to his face 
and so have other U.S. officials. But the U.S. really made a 
difference with which we should be proud of as well.
    So it is a different environment and a different set of 
challenges in this peace process. We are not just cheerleading, 
and we are not going to undermine them in public, but we are 
trying to help them be supportive, as you suggest, as an 
adviser, as a counselor, but not to impose our views.
    Mr. Duncan. Gentleman's time is expired.
    They have just called votes, but I think we have time to go 
to Mr. Meeks, who I have learned a lot about the Western 
Hemisphere from. I appreciate his passion for Colombia in 
general, and he is recognized for 5 minutes.
    Mr. Meeks. Thank you, Mr. Chairman and Ranking Member 
Sires.
    You know, years ago, when Congress debated support for Plan 
Colombia, I was one of those Members who supported it because I 
had the hope that it would help the nation come back from the 
brink of war. I knew then what I know now, that the ultimate 
answer would have to come through political dialogue.
    I was heartened by former President Uribe's fantastic and 
tremendous commitment to Plan Colombia. Colombia put up almost 
on a 10-to-1 match, they put up their own money, and President 
Uribe was right in there doing that. And I believe that his 
success in bringing stability to Colombia is what has paved the 
way for President Santos' courageous embrace of dialogue and 
negotiations through the peace process.
    Colombia's nearly 50-year internal armed conflict has had 
devastating consequences in Colombia. And the current peace 
process, in my estimation, is the most recent hope that that 
conflict can finally end, which would then make it a really 
good investment if we had gone through stability and now have 
an ending of the conflict.
    And so many other nations were also affected by this 
conflict. You know, those that had to deal with the spillover 
effects we are fighting with the FARC. And that is the reason 
why it is not a surprise that many of Colombia's neighbors 
support the peace talks also, the hemisphere, et cetera. But 
many of their neighbors want to see this process work and 
succeed.
    And some of them have actively engaged in the peace 
process, in support of the peace process. But as the 
negotiations go on and uncertainty about prospects for 
conclusion grows, observers are counting the cost of failing, 
which is what I am concerned about. There are also observers 
who are calculating the cost of protracted negotiations.
    And today what I want to highlight and ask questions about 
is another group that is counting the cost of whether or not 
the talks succeed. But those on the Pacific Coast of Colombia 
who have lived at the heart of the conflict and the scourge of 
accompanying violence and isolation, the future for them really 
hangs in the balance here. And the Afro-Colombia and indigenous 
communities on the Pacific Coast know the cost of both war and 
peace.
    So I am hoping to find out, for example, and I guess I will 
ask you, Mr. Aronson, that the situation of the African 
Colombian community is in dire need right now, particularly 
with this ongoing conflict and the effects of BACRIM. What are 
we doing to help in that area with the conflict, et cetera? 
What are we doing to help?
    Mr. Aronson. Well, thank you for the question. And I want 
to pay great tribute to you, Mr. Meeks because I know over the 
years, the interests of the indigenous people, Afro-Colombians, 
have been a central concern of yours. And I think your passion 
about that and your interest has made it a central concern of 
both the Uribe and the Santos government.
    I would say two things and maybe ask Alex to talk a little 
bit about the level of funding and support. But, you know, this 
is the first peace negotiation I think that has put the victims 
first. And as you mentioned, they not only have observed but 
they have participated in the peace talks and successive waves 
of victims, including citizens from the Afro-Colombian 
community and indigenous people, and that is really the 
centerpiece of the negotiation.
    That is what justice is about, reparations for those 
victims, and that has to be a central part of a settlement, and 
President Santos has made that clear. We already have programs 
in place, as you know, to address some of those issues. And 
Ambassador Whitaker himself has made this a very important 
personal issue.
    As far as the levels of support, Alex, do you have any 
information on that?
    Mr. Lee. On support for the Afro-Colombian programs, it 
is--as Congressman Sires pointed out, these programs started in 
previous administration and have been supported on thanks to 
the support of the Members here in Congress. And since about 
2011 to this year, we have about $61 million of programs, which 
I mentioned a little bit before, which cover a whole variety to 
this group that--you are quite right, Congressman Meeks--is 
among one of the most vulnerable groups that have experienced 
the conflict in the most direct and terrible manner.
    And so these programs that have been championed by yourself 
and others is very important for Ambassador Whitaker. They 
provide land retitling assistance----
    Mr. Meeks. Let me just ask because I have got one other 
important question because I know we have got votes, and I want 
to just ask one other question real quick because I just came 
back from Colombia not too long ago, and I sat down with 
diverse groups of individuals from the Pacific Coast, some who 
don't even talk to one another.
    But they all had one message--and I want to know what your 
opinion was--that as these negotiations are going on that, you 
know, when you talk about land, when you talk about politics, 
et cetera, that they were telling me that they didn't have a 
voice at the table, at the negotiating table. So my question 
is, do you know all the Afro-Colombians at the table in the 
negotiations, or are talks about after what takes place?
    Because what is going on now if the violence is going to 
escalate or what takes place after the peace process and goes 
back, they are going to be affected. And from what they told me 
when I was just there is that they are not involved, and I was 
wondering whether or not you can let me know if they are at the 
table or not.
    Mr. Aronson. Well, that is a good question, Congressman. I 
do think that those communities have been involved at the level 
of going to the table and meeting with both sides in successive 
groups because I know about 120 victims have participated in 
the process at that level. I don't think any outside group is 
actually at the table when the negotiations are going forward, 
but I think you point to an important point, which is to make 
sure we use our efforts and remind the Colombian Government 
that these communities need to be included and their interests 
have to be taken into account, both land and future security. 
And I think we will make note of that. It is an important 
point. I appreciate it.
    Mr. Meeks. Thank you.
    Mr. Duncan. I want to thank the gentleman.
    I want to thank the witnesses for valuable testimony and 
answering the questions very frankly, I think.
    I will say that the questions about this hearing, the 
United States is not meddling in the affairs of Colombia, but 
we are very interested in seeing a peaceful solution of this. 
When you look at the numbers that I mentioned earlier, 220,000 
deaths and 5 million people displaced, it is concerning to us.
    And the United States has an investment in success in 
Colombia. And we want to see continuation of a willing ally, a 
regional ally, and great trading partner, which I think we have 
in Colombia. And I think you have heard on both sides of the 
aisle that we are very concerned about seeing success in 
Colombia. So I want to thank you for sharing that.
    And members of the subcommittee will be permitted to submit 
written statements. If they have additional questions, they 
will be submitted, and we will hold the record open for 5 
business days to allow for that. And there being no further 
business, due to votes being called, we will stand adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                       [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
